OIG Audit Report GR-80-07-001

Stop Violence Against Women Formula Grant Awarded to 
the Louisiana Commission on Law Enforcement

Audit Report GR-80-07-001


October 2006
Office of the Inspector General


Executive Summary





 The Office of the Inspector General, Audit Division, completed an audit of STOP Violence Against Women (SVAW) Formula Grant Number 2002‑WF‑BX-0046, awarded by the U.S. Department of Justice, Office of Justice Programs, Office on Violence Against Women, to the Louisiana Commission on Law Enforcement (LCLE) in Baton Rouge, Louisiana.
 As of March 19, 2002, the LCLE was awarded a total of $2,157,000. According to the grant application documents, the LCLE will build on previous efforts by providing continued funding for programs that have a demonstrated need and the ability to fill that need, as well as programs that will bridge gaps in service or provide service to victim segments that recently have been identified. 
 The STOP (Services • Training • Officers • Prosecutors) Violence Against Women Formula Grant Program (STOP Program) promotes a coordinated, multidisciplinary approach to improving the criminal justice system's response to violent crimes against women. The STOP Program encourages the development and strengthening of effective law enforcement and prosecution strategies to address violent crimes against women and the development and strengthening of victim services in cases involving violent crimes against women.
 We reviewed the LCLE’s compliance with essential grant conditions and found weaknesses in four of the eight areas tested – drawdowns, matching, grant expenditures, and monitoring of subgrantees. No weaknesses were found in reporting, budget management and control, or program income. We also reviewed grant achievements, but express no opinion due to data limitations. Our report contains five recommendations that are discussed in detail in the Findings and Recommendations section. Our audit objectives, scope, and methodology appear in Appendix I. 
 As a result of the deficiencies found, we question costs totaling $51,972.1 We discussed the results of our audit with the LCLE officials and included their comments in the report, as applicable. We found: 

 one subrecipient received $4,210 in excess funds; 
 this same subrecipient failed to provide the required 25 percent matching funds, amounting to $12,771; 
 unsupported costs charged to the grant in the amount of $34,149; 
 unapproved timesheets for Pay Period 5 in 2004 amounting to $842; and 
 inadequate procedures for monitoring of subrecipients. 




Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs and funds to be put to better use. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for the definitions of questioned costs and funds to be put to better use.